N o. 2 0- 1 5 4 1
I NT H E

$ >tt p r e m e Q C o u rt of tl) e W nit e b $ >t at es
PI V O T A L S O F T W A R E, I N C., E T A L.,

P etiti o n e r s,
V.

S U P E RI O R C O U R T O F C A LI F O R NI A,
CI T Y A N D C O U N T Y O F S A N F R A N CI S C O, E T A L.,

R e s p o n d e nt s.

C E R TI FI C A T E O F S E R VI C E
A s r e q uir e d b y S u pr e m e C o urt R ul e 2 9. 5, I h er e b y c ertif y t h at t hr e e c o pi e s of
t h e Bri ef f or A mi c u s C u ri a e C h a m b er of C o m m er c e of t h e U nit e d St at e s of A m eri c a
i n S u p p ort of P etiti o n er s i n Pi v ot al S oft w a r e, I n c. v. S u p e ri o r C o u rt of C alif o r ni a, N o.
2 0- 1 5 4 1, w er e s er v e d vi a o v er ni g ht m ail o n all p arti e s r e q uir e d:
D e a n n e E. M a y n ar d

M O R RI S O N

&

F OE RSTE R

LLP

2 1 0 0 L Str e et, N W, S uit e 9 0 0
W a s hi n gt o n, D C 2 0 0 3 7
( 2 0 2) 8 8 7- 8 7 4 0
d m a y n ar d @ m of o. c o m

C o u n s el f or P etiti o n e r s

T h o m a s C. G ol d st ei n
G O L D S T EI N

& R U S S E L L, P. C.

7 4 7 5 Wi s c o n si n A v e., S uit e 8 5 0
B et h e s d a, M D 2 0 8 1 4
( 2 0 2) 3 6 2- 0 6 3 6
t g ol d st ei n @ g ol d st ei nr u s s ell. c o m

C o u n s el f or R e s p o n d e nt s

I d e cl ar e u n d er p e n alt y of p erj ur y t h at t h e f or e g oi n g i s tr u e a n d c orr e ct.

D at e: A u g u st 2 3, 2 0 2 1

~

m

p e o

